          U.S. Department of Energy
          Office of Inspector General
          Office of Inspections and Special Inquiries




Inspection Report

Material Control and Accountability at
Lawrence Livermore National
Laboratory
                                 Department of Energy
                                      Washington, DC 20585

                                      November 15, 2006



MEMORANDUM FOR TH

FROM:                    C4z%z&r
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Material Control and
                         Accountability at Lawrence Livermore National Laboratory"

BACKGROUND

Lawrence Livermore National Laboratory supports the Department of Energy's core mission of
maintaining a safe, secure, and reliable nuclear weapons stockpile and applying scientific
expertise toward the prevention of the proliferation of weapons of mass destruction and terrorist
attacks. Livermore personnel perform tests and study various characteristics of nuclear material,
to include accountable nuclear material, which is a collective term that encompasses all materials
so designated by the Secretary of Energy in quantities that require special control. Examples of
these materials include plutonium, enriched uranium, americium, and depleted uranium.

The tests and studies performed by Livermore can require the Laboratory to maintain Categories
I, 11,111, and IV items and quantities of accountable nuclear material. Categories I and I1 items
are those that would be most attractive to an adversary intent on theft or diversion. At
Livermore, these categories of accountable nuclear material are maintained in Material Balance
Areas located within a special security area known as a Material Access Area (MAA).
Categories I11 and IV items are those that would be less attractive to an adversary intent on theft
or diversion, containing smaller quantities of plutonium, uranium, and other materials. Most of
these items are maintained in Material Balance Areas outside the MAA.

The capability to deter, detect, and assist in the prevention of theft or diversion of nuclear
material is critical. As such, control and accountability of this material is provided through the
Livermore Material Control and Accountability (MC&A) Program. The objective of our
inspection was to determine if the Livennore MC&A Program was providing timely and
accurate information regarding the inventory, transfers, characteristics, and location of
accountable nuclear materials.

RESULTS OF INSPECTION

We concluded that, in general, Livermore's MC&A Program provided timely and accurate
information regarding the inventory, transfers, characteristics, and location of accountable
nuclear material at the Laboratory.




                                     @     Printed will, soy ink on recycled paper
However, we identified a few opportunities for improvement in the MC&A Program.
Specifically, we found that:

      When designated personnel at Livermore conducted a required 100 percent semi-annual
      inventory of accountable nuclear material in the MAA, they did not always follow
      applicable inventory procedures. For example, inventory personnel did not validate serial
      numbers, verify the integrity of tamper indicating devices (TTDs), or confirm the net
      weight of accountable nuclear material accumulated in three containers stored in a sealed
      glove box within the MAA.

       Livermore's Controlled Materials Accountability and Tracking System (COMATS) was
       not always accurate or updated to reflect the actual status or location of TlDs or items of
       Category ZV material outside the MAA. We identified status or location issues with 2 1 of
       68 items sampled in one Material Balance Area. Further, TlDs for a number of drums
       that had been removed from the MAA were not defaced as required, and four of the TIDs
       were attached to items that were different from what was identified in COMATS.

We made several recommendations to management designed to enhance Livermore's ability to
deter, detect, and assist in the prevention of the theft or diversion of accountable nuclear
materials. Although the opportunities for improvement identified in this report involved
Categories 111and IV materials, it is still important that, as part of the Department's graded
approach to safeguards, these materials be protected from those seeking to harm this Nation.

MANAGEMENT REACTION

In responding to a draft of this report, the National Nuclear Security Administration (NNSA)
stated that "NNSA is hesitant in agreeing with the recommendations contained therein." NNSA
stated that the report recommendations only addressed opportunities for improvement related to
Category IV materials and did not consider the requirement for a graded approach to safeguards
or Livermore's current requirements, which include the accuracy of COMATS. NNSA asserted
that the inspection team characterized situations incorrectly.

We do not believe that NNSA has accurately characterized the Office of Inspector General
inspection activity. Liverrnore's graded MC&A Program is documented in its MC&A Plan and
implementing procedures. The inspection team evaluated the Laboratory's MC&A Program
against the requirements contained in these documents. The findings and recommendations
resulting from this evaluation were based upon demonstrated noncompliance with the Plan and
procedures and, therefore, were consistent with the concept of a graded approach to safeguards.
Thus, we have a fundamental difference of opinion with NNSA regarding these matters.

NNSA's verbatim comments are provided in their entirety in Appendix B of the report. In
addition, the Management and Inspector Comments section of the report contains a detailed
discussion of the comments.

Attachment
cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Under Secretary of Energy
      Under Secretary of Science
      Chief of Staff
      Director, Office of Security and Safety Performance Assurance
      Manager, Livermore Site Office
      Director, Policy and Internal Controls Management (NA-66)
      Director, Office of Internal Review (CF-1.2)
      Audit Liaison, Livermore Site Office
MATERIAL CONTROL AND ACCOUNTABILITY AT
LAWRENCE LIVERMORE NATIONAL LABORATORY



TABLE OF
CONTENTS


             OVERVIEW

             Introduction and Objective          .....................................................


             O~servationsand Conclusions                .............................................



             DETAILS OF FINDINGS

             IWC&A Program Performance.................................................

                   MC&A Controls Inside the MAA ...................................

                    MC&A Controls Outside the MAA ................................




             MANAGEMENT AND INSPECTOR COMMENTS                                             ----------



             APPENDICES

             A. Scope and Methodology ...................................................

             B. Management (h-m-nents              ..................................................
Overview

INTRODUCTION    Lawrence Livermore National Laboratory (LLNL,) supports
AND OBJECTIVE   the Department of Energy's (DOE'S) core mission of maintaining a
                safe, secure, and reliable nuclear weapons stockpile and applying
                scientific expertise toward the prevention of the proliferation of
                weapons of mass destruction and terrorist attacks. As part of the
                Laboratory's fundamental science and stockpile stewardship
                programs, LLNL personnel perform tests and study various
                characteristics of nuclear material, to include accountable nuclear
                material. Accountable nuclear material is a collective term that
                includes all materials so designated by the Secretary of Energy in
                quantities that require special control. Examples of these materials
                include plutonium, enriched uranium, americium, and depleted
                uranium.

                The tests and studies performed by LLNL can require the
                Laboratory to maintain Categories I, 11, 111, and 1V items and
                quantities of accountable nuclear material. Categories I and I1
                items are those that would be most attractive to an adversary intent
                on theft or diversion and generally include weapon components
                such as pits, as well as other pure products and high grade
                materials containing significant quantities of plutonium and
                uranium. At LLNL, these categories of accountable nuclear
                material are maintained in Material Balance Areas located within a
                special security area known as a Material Access Area (MAA).
                The MAA is located within a Protected Area.

                Categories 111 and IV items are those that would be less attractive
                to an adversary intent on theft or diversion, containing smaller
                quantities of plutonium, uranium, and other materials. Category
                IV materials include lower quantities of plutonium and enriched
                uranium, which could exist in highly irradiated forms, and depleted
                uranium. While the MAA at LLNL does contain Categories 111
                and 1V items, these categories of accountable nuclear material are
                generally maintained throughout the Laboratory in Material
                Balance Areas primarily located in Limited Security Areas and
                Property Protection Areas.

                LLNL maintains an inventory of approximately 1,600 items of
                accountable nuclear material within the MAA and approximately
                2,200 items of accountable nuclear material outside the MAA. The
                capability to deter, detect, and assist in the prevention of theft or
                diversion of this material is critical. As such, control and
                accountability of these materials are provided through the LLNL



Page 1                                    Material Control and Accountability
                                          at Lawrence Livermore National
                                          Laboratory
                   Material Control and Accountability (MC&A) Program, which was
                   established under the requirements of DOE Manual 470.4-6,
                   "Nuclear Material Control and Accountability.'' The objective of
                   our inspection was to determine if the LLNL MC&A Program was
                   providing timely and accurate information regarding the inventory,
                   transfers, characteristics, and location of accountable nuclear
                   materials.

OBSERVATIONS AND   We concluded that, in general, LLNL's MC&A Program
CONCLUSIONS        provided timely and accurate information regarding the inventory,
                   transfers, characteristics, and location of accountable nuclear
                   material at the Laboratory, particularly within the MAA.
                   However, we identified opportunities for improvement in controls
                   over accountable nuclear material maintained both inside and
                   outside the MAA.

                   We conducted a random sample of 160 items of accountable
                   nuclear material maintained in the MAA, to include Categories I
                   and I1 materials. We found all items to be consistent with the
                   characteristics and locations identified in the Controlled Materials
                   Accountability and Tracking System (COMATS), LLNL's official
                   MC&A database. We also found that the limited number of
                   transfers of accountable nuclear material within the MAA were
                   appropriately documented. While we were conducting our
                   sampling, LLNL was conducting a required 100 percent semi-
                   annual inventory of all accountable nuclear materials in the MAA.
                   Notably, LLNL's inventory did not identify any discrepancies in
                   accountable nuclear material items, quantities, or locations.
                   However, as part of our inspection, we observed LLNL personnel
                   while they performed the semi-annual inventory and found that,
                   contrary to MC&A Program requirements:

                      Inventory personnel did not validate serial numbers, verify the
                      integrity of tamper indicating devices (TIDs), or confirm the
                      net weight of accountable nuclear material accumulated in
                      three containers stored in a sealed glove box within the MAA.
                      Inventory personnel instead relied on a handwritten note
                      attached to the outside of the glove box and input from
                      technicians familiar with operations in the area to verify the
                      presence and location of the accountable nuclear materials.

                      The second team member of a two-person inventory team held
                      the inventory printout and verbally provided item serial and
                      TID numbers to the first team member instead of the first team
                      member finding the item and providing the item serial and TID
                      numbers to the second team member. The MC&A Plan


Page 2                                             Observations and Conclusions
            procedure is intended to assure that all items in a specific
            location are accounted for, whereas the procedure actually used
            by the team only assured that all items on the inventory would
            be located. This modification in procedure created a risk of not
            accounting for all nuclear material items.

         Outside the MAA, we randomly sampled 141 Category IV items of
         accountable nuclear material in 6 Material Balance Areas.
         Although all the materials were appropriately characterized, we
         identified some inventory, transfer, and location issues in two of
         the Material Balance Areas. Specifically, we found that COMATS
         was not always accurate or updated to reflect the actual status or
         location of TIDs or items of Category IV material, as follows:

            TIDs for a number of drums that had been removed from the
            MAA were not defaced as required, and four of the TIDs were
            attached to items that were different from what was identified
            in COMATS;

            Twelve items were found at locations within a Material
            Balance Area other than the locations specified in COMATS;

            Six items were destroyed, but COMATS was not updated to
            reflect these changes in status;

            One item was only partially destroyed during testing, but
            COMATS was not updated to reflect it still existed as part of
            the inventory; and

            Two items were not on the Material Balance Area printout for
            the location where they were stored.




Page 3                                  Observations and Conclusions
Details of Findings

MC&A PROGRAM          We concluded that, in general, LLNL's MC&A Program
PERFORMANCE           provided timely and accurate information regarding the inventory,
                      transfers, characteristics, and location of accountable nuclear
                      material at the Laboratory, particularly within the MAA.
                      However, we identified opportunities for improvement in controls
                      over accountable nuclear material maintained both inside and
                      outside the MAA.

MC&A Controls         We conducted a random sample of 160 accountable nuclear
Inside the MAA        material items maintained within the MAA. These items included
                      Categories I and I1 items, as well as waste materials generated by
                      process operations and classified as Category IV (low level and
                      transuranic waste). We found all 160 items to be consistent with
                      the characteristics and locations identified in COMATS. We also
                      found that the limited number of transfers of accountable nuclear
                      material within the MAA were appropriately documented.

                      We arranged our inspection activities in order to observe LLNL's
                      process for performing an MC&A inventory within the MAA. While
                      we were conducting our random sample, LLNL Materials
                      Management personnel were conducting a required 100 percent semi-
                      annual inventory of all accountable nuclear items maintained within
                      the MAA, to include all Categories I and 11 materials at the LLNL site.
                      Notably, this inventory did not identify any discrepancies in
                      accountable nuclear material items, quantities, or locations.

                      As part of the 100 percent inventory, LLNL's MC&A Plan
                      requires that statistical sampling be used to select items for
                      confirmation measurement to verify the presence of expected
                      nuclear materials. Consistent with this requirement, LLNL
                      selected 129 items using a statistical sampling method designed to
                      place more emphasis on Categories I and I1 items. No anomalies
                      were discovered.

Validation of     While conducting our random sample and observing the LLNL
Materials         inventory, we found that, contrary to MC&A Program
                  requirements, inventory personnel did not validate serial numbers,
                  verify the integrity of TIDs, or confirm the net weight of
                  accountable nuclear material accumulated in three containers
                  stored in a sealed glove box within the MAA. The LLNL MC&A
                  Plan states that "the inventory team (two persons) systematically
                  checks the location for nuclear material and identifies each item
                  found by reading the serial number when readily visible, or by
                  using the knowledge of the Material Balance Area Representative
                  or designee and a check of net weight when a serial number is not



Page 4                                                              Details of Findings
                       readily visible." In addition, "the integrity of applied TlDs is also
                       verified during routine . . . inventories of nuclear material."
                       However, for the three containers in the glove box, although the
                       serial and TID numbers were not readily visible, inventory persome1
                       did not perform any check of net weight, as required. Instead,
                       inventory personnel relied on (1) a "sticky note" with handwritten
                       serial numbers and TID numbers that was attached to the outside of
                       the glove box and (2) input from technicians familiar with operations
                       in the area as to the presence and location of the accountable nuclear
                       material stored in the three containers. We determined that the last
                       time the container serial numbers and TID numbers were visually
                       verified was in February 2005.

                       After we identified this condition, the National Nuclear Security
                       Administration's (NNSA's) Livermore Site Office (LSO) issued a
                       Survey Report that confirmed our finding and stated that the three
                       items "were inventoried by their presence and partial observation
                       of [TIDs] alone," and that "this action does not meet established
                       [inventory] objectives." The Survey Report also stated that
                       "whereas these items were considered part of the inventory
                       population, they are required to have confirmation of attributes of
                       the accountable nuclear materials contained within." The Survey
                       Report stated that "the items should have been measured at the
                       time of the announced inventory," and that "LLNL was directed by
                       LSO to perform confirmation measurements at the earliest
                       opportunity."

Inventory Procedures   While observing LLNL's 100 percent semi-annual inventory in the
                       MAA, we also determined that a two-person inventory team was
                       conducting the inventory in a reverse manner from what is required
                       by the MC&A Plan. The LLNL MC&A Plan states that "To
                       accomplish the 100% inventory of a workstation, a two-person
                       inventory team systematically checks the workstation or location
                       for nuclear material and identifies each item found by serial
                       number and TID number." The LLNL MC&A Plan also states that
                       "One team member examines the location for material while the
                       second team member records the items found on the inventory
                       listing for the assigned location." Contrary to this, we observed
                       the second team member, holding the inventory printout, verbally
                       provide item serial and TID numbers to the first team member
                       instead of the first team member finding the item and providing the
                       item serial and TID numbers to the second team member. The
                       MC&A Plan procedure is intended to assure that all items in a
                       specific location are accounted for, whereas the procedure actually
                       used by the team only assured that all items on the inventory would




Page 5                                                               Details of Findings
                    be located. This modification in procedure created a risk of not
                    accounting for all nuclear material items.

                    We also observed that, during LLNL's inventory of low-level and
                    transuranic waste drums in the MAA, inventory team members did
                    not personally verify item TID numbers or the integrity of TIDs, as
                    required by supporting procedures for the MC&A Plan. The
                    procedures state that inventory team members should verify such
                    information as serial numbers and the presence of TIDs, to include
                    confirming TID numbers and examining TIDs to assure they are
                    properly applied and intact. Contrary to this, we observed that an
                    LLNL technician who was not a member of the inventory team and
                    who was responsible for the area being inventoried was allowed to
                    "assist" the inventory team by reading off the iten1 TID numbers
                    and verifying the integrity of the TIDs.

MC&A Controls       Outside the MAA, we randomly sampled 141 Category IV
Outside the MAA     accountable nuclear material items in 6 Material Balance Areas.
                    Although all the materials were appropriately characterized, we
                    identified some inventory, transfer, and location issues in two of
                    the Material Balance Areas. Specifically, we found that COMATS
                    was not always accurate or updated to reflect the actual status or
                    location of TlDs or Category IV material items, as follows.

Tamper Indicating   We found that the TIDs for a number of drums that had been
Devices             removed from the MAA were not defaced as required, and four of
                    the TIDs were attached to items that were different from what was
                    identified in COMATS. The LLNL MC&A Plan states that
                    "LLNL has established a TID program to provide, in conjunction
                    with the LLNL material surveillance program, assurances that
                    nuclear materials in Category I Material Balance Areas have not
                    been tampered with when a properly applied TID has been placed
                    on its outermost containment in a secure storage area." The
                    MC&A Plan states that all application and removal/destruction of
                    TIDs are under a two-person surveillance system environment and
                    that all nuclear materials receiving inventory benefit from TIDs are
                    under Category I nuclear material surveillance requirements.
                    MC&A procedures also state that when drums are removed from
                    the MAA, authorized individuals must deface the TID on each
                    drum and document the destruction of the TID in the TID tracking
                    system.

                    We selected five waste drums in Material Balance Area 170 for
                    verification of the characteristics and locations identified in
                    COMATS. These drums contained low level and transuranic waste
                    generated in a Category I Material Balance Area within the



Page 6                                                            Details of Findings
                        MAA. We noted that, even though the drums had been removed
                        from the MAA, TIDs were still physically attached to them. In
                        addition, for one of the drums, COMATS showed that the TID
                        assigned to the drum had been destroyed. Based on a further
                        review in COMATS, we determined that the TID attached to the
                        drum was actually assigned to a different drum. This finding
                        resulted in the expansion of our review and the discovery of three
                        other instances where the TID physically attached to a drum was
                        assigned to a different drum in COMATS.

                        Due to our identification of this condition, the LSO issued a
                        Survey Report that confirmed our finding and stated that "LLNL
                        must have a documented program, administered by the MC&A
                        organization, to control TID's and to ensure that TID's are used to
                        the extent possible to detect violations of container integrity." The
                        Survey Report also stated that "Previous practice had COMATS
                        performing virtual destruction upon the containers['] removal from
                        the PA [Protected Area]," and that "This practice resulted in a few
                        discrepancies during a recent IG audit." In addition, the Survey
                        Report stated that "It has been agreed that from this date on LLNL
                        MC&A TID's shall be no longer accepted as providing any
                        safeguards value for LLNL's accountable nuclear materials once
                        the container is removed from the MAA." As a result, LLNL
                        removed all TIDs from containers that were no longer under two-
                        person surveillance system safeguards.

Status of Accountable   We found 21 instances in another Material Balance Area where
Materials               COMATS did not accurately reflect the actual status or location of
                        accountable material. The MC&A Plan states that, for Categories
                        111 and IV Material Balance Areas, "the objective of the item
                        inventory is to assure that each item listed in [COMATS] is present
                        in its appropriate location and that no unexpected items are present
                        in any location." The MC&A Plan further states that to accomplish
                        an item inventory for a location in Category IV Material Balance
                        Areas, "The MBA [Material Balance Area] Representative has an
                        inventory listing for the MBA that identifies location number, if
                        applicable, serial number and net weight for all items expected to be
                        present in the MBA." "The Material Balance Area Representative
                        checks the item on the printout as being located or adds the item's
                        serial number to the printout if it is not listed."

                        We conducted a random sample of 136 items in Material Balance
                        Areas 120, 200, 300, 450, and 570. In most cases, the site
                        inventories were accurate. However, in Material Balance Area 300




Page 7                                                                Details of Findings
         we sampled 68 items at 10 locations and identified issues with the
         status or location of 21 items, as follows:

             Twelve items were found at locations within the Material
             Balance Area other than the locations specified in COMATS.
             One item was moved to another location for an experiment, but
             COMATS was not updated to show the new location. Nine
             items were located in various storage locations throughout the
             Material Balance Area. Two items were located in an area
             adjacent to the location of record.

            Six items were destroyed during destructive testing between
            March 2005 and September 2005, but COMATS was not
            updated to reflect the changes in status. For four of the items,
            COMATS was not updated at the time of destruction and
            continued to show these items as active inventory items. The
            other two items remained active in COMATS because both
            their classified and unclassified identification numbers had
            been inputted into the database, but only one identifier for each
            item was removed from COMATS when the items were
            destroyed.

            One item used in a destructive test was removed from
            COMATS; however, it was only partially destroyed. Even
            though the item was returned to storage, COMATS was not
            updated to reflect it still existed as part of the inventory.

            Two items were not on the Material Balance Area printout for
            the location where they were stored, so their presence at the
            location was "unexpected." After additional review, we
            determined that they were active in COMATS, but no specific
            Material Balance Area location had been entered into the
            database by Material Balance Area 300 site personnel.

         LSO and LLNL Materials Management personnel were present
         during the identification of these issues and took immediate action
         to initiate follow-up activities with regard to the identified issues.




Page 8                                                 Details of Findings
RECOMMENDATIONS   Although, in general, LLNL's MC&A Program provided timely
                  and accurate information, there were opportunities for
                  improvement. Therefore, we recommend the Manager, LSO,
                  ensures that:

                  1. Inventory personnel validate all serial numbers, verify the
                     integrity of all TIDs, and, if required, confirm the net weight of
                     accountable nuclear material.

                  2. lnventory personnel conduct inventories in accordance with
                     MC&A Program requirements.

                  3. The TID program is managed in accordance with MC&A
                     Program requirements, with particular emphasis on the
                     accuracy of information in COMATS and elimination of TIDs
                     when no longer required under LLNL MC&A procedures.

                  4. COMATS is accurate for Category IV Material Balance Areas,
                     consistent with MC&A Program requirements.

MANAGEMENT        Management's verbatim comments regarding a draft of this report
AND INSPECTOR     are summarized below and are contained in their entirety at
COMMENTS          Appendix B.

                  In general comments, NNSA's Associate Administrator for
                  Management and Administration stated that NNSA is hesitant in
                  agreeing with the recommendations contained therein.
                  Specifically, the Associate Administrator stated that the report
                  recominendations only addressed opportunities for improvement
                  related to Category IV materials and did not consider the
                  requirement for a graded approach to safeguards or LLNL7s
                  current requirements, which include the accuracy of COMATS.
                  He asserted that the inspection team characterized situations
                  incorrectly.

                  Inspector Comment: We found the comments from the Associate
                  Administrator to be non-responsive to our findings and
                  recommendations. The comments misrepresent that the report
                  findings and recommendations are not consistent with a graded
                  approach to safeguards and that the inspection team characterized
                  situations incorrectly.

                  LLNL's graded MC&A Program is documented in its MC&A
                  Plan, which was approved by the LSO. This Plan, along with




Page 9                                                   Recon- menda at ions
                                        Management and Inspector Comments
          implementing procedures, specifically describes how DOE MC&A
          requirements are addressed at LLNL, while establishing site-
          specific requirements from which internal and external reviewers
          can measure LLNL's performance.

          The inspection team used LLNL's MC&A Plan and implementing
          procedures as the requirements documents against which the
          Laboratory's MC&A Program was evaluated. The findings and
          recommendations developed by the inspection team were based
          upon demonstrated noncompliance with the Plan and procedures,
          and, therefore, are consistent with the concept of a graded
          approach to safeguards. Thus, while we have made some minor
          changes to the report based upon management's comments, we
          reaffirm our overall findings and recommendations. Following is
          specific discussion of the findings and recommendations.

          Recommendation 1

          The Associate Administrator stated that recommendation 1
          addresses activities that are "part and parcel" of LLNL7scurrent
          operations. Further, in comments regarding the finding that
          supports this recommendation, he stated that the items in question
          were afforded significantly greater safeguards than NNSA policy
          directs and that LLNL's MC&A Plan allows verbal verification
          from the experimenter or the logbook when the presence of an item
          cannot be verified without disrupting an experiment in progress.
          He also stated that this issue should not be construed as an item or
          finding related to the "audit," but was addressed and resolved
          entirely through LSO and LLNL coordination, then discussed with
          the Office of Inspector General team.

          Inspector Comment: The items in question were not part of an
          experiment in progress. Therefore, the MC&A Plan required
          visual verification of item serial and TID numbers or the use of the
          knowledge of the Material Balance Area Representative or
          designee and a check of net weight. In addition, contrary to the
          statement that this finding "should not be construed as an item or
          finding" related to the inspection since it was addressed and
          resolved entirely through normal LSO and LLNL coordination, all
          findings discussed in this report were the direct result of work
          performed by the Office of Inspector General inspection team.
          LSO and LLNL coordination occurred after the inspection team
          identified the issue.




Page 10                         Management and Inspector Comments
          Recommendation 2

          The Associate Administrator stated that the procedure in place at
          the time of the inspection did not contain specific guidance for "the
          anomalous situation in which an item is not initially located during
          the inventory process," and that a clarification of LLhTL's accepted
          practice was added to the procedure. Further, in comments
          regarding the finding that supports this recommendation, the
          Associate Administrator stated that the room in question was
          afforded significantly greater safeguards than policy directs. He
          stated that most items were in process within incubators, that a few
          items were not identified during the initial inventory check, and
          that the second team member verbally provided serial numbers to
          the other team member so that the items could be reconciled. He
          stated that describing the approach as conducting the inventory in a
          reverse manner appears to be an overstated misunderstanding of
          the inventory practice that was occurring. He also stated that the
          MC&A Plan does not specify that all inventory team members
          must be from the MC&A organization and that requesting a
          knowledgeable workstation person to assist in reading a TID is
          fully consistent with MC&A procedures.

          Inspector Comment: We specifically observed LLNL inventory
          team members conducting the inventory in a reverse manner from
          that required by the MC&A Plan. Contrary to the Associate
          Administrator's statement that this occurred only as part of the
          reconciliation effort after a few items were not identified during
          the initial check, the LLNL inventory team began the inventory
          process by violating the procedure required by the MC&A Plan. In
          addition, inventory team members allowed a technician responsible
          for an area being inventoried to read off item TID numbers and
          verify the integrity of the TIDs. Neither of the inventory team
          members visually verified the item TID numbers or the integrity of
          the TIDs as required by the MC&A procedures.

          Recommendation 3

          The Associate Administrator stated that the recommendation
          addresses activities that are "part and parcel" of LLNL's current
          operations. Further, in comments regarding the finding supporting
          this recommendation, the Associate Administrator stated that at no
          time after the drums left the MAA were the TIDs used or intended
          to be used for safeguards and that, regardless of the reaffirmation
          in LSO's Survey Report, the policy of not using TIDs for
          safeguard purposes unless they are under effective surveillance has




Page 11                          Management and Inspector Comments
          been practiced at LLNL and explicitly stated in LLNL's MC&A
          Plan since revision in 2000. He also stated that this issue
          represented a database error, not a material error, and that the
          record system must accurately reflect the location and identity of
          TIDs with 99 percent accuracy. The Associate Administrator
          stated that having four errors out of thousands of TIDs inspected
          during the October inventory was indicative of effective
          performance.

          Inspector Comment: The inspection team did not evaluate
          LLNL's overall performance against the standard that the record
          system must accurately reflect the location and identity of TIDs
          with 99 percent accuracy. The inspection team's review of TIDs
          was very limited (we did not look at "thousands" of TIDs), and the
          focus of the resulting finding was on management of the TID
          program in accordance with requirements of the MC&A Program.
          Specifically, MC&A procedures state that when drums are
          removed from the MAA, authorized individuals must deface the
          TID on each drum and document the destruction of the TID in the
          TID tracking system. In the instances discussed in the report, even
          though the drums had been removed from the MAA, TIDs were
          still physically attached to them and the information in the tracking
          system was inaccurate.

          Recommendation 4

          The Associate Administrator stated that NNSA does not agree with
          the recommendation because the report does not consider the
          requirement for a graded approach to safeguards and that LLIUL7s
          current requirements, including the accuracy of COMATS, already
          meet and generally exceed published requirements for Category IV
          Material Balance Areas. Further, in comments regarding the
          finding that supports this recommendation, the Associate
          Administrator stated that the information included did not
          accurately describe the requirements specified in LLNL7sMC&A
          Plan or consider current requirements. He stated that the location
          determination for items in Category IV Material Balance Areas
          was at the Material Balance Area level and that additional location
          identification in COMATS was for the Material Balance Area
          Representative's convenience only. He also stated that updates to
          COMATS in Material Balance Area 300 could take several
          months. In addition, he stated that a simple human error resulted
          in duplicate database entries, which would have been identified
          and reconciled during the next annual inventory. He stated that
          Category IV items only needed to be documented as being at




Page 12                          Management and Inspector Comments
          LLNL, and the fact LLNL further specifies the Material Balance
          Area exceeds requirements.

          lnspector Comment: The inspection findings were based upon
          the requirements of LLNL's MC&A Plan and implementing
          procedures, which LLNL developed using a graded approach. The
          primary objective of the MC&A Program is to provide timely and
          accurate information regarding inventory, external and internal
          transfer, characteristics, and location of accountable nuclear
          materials at LLNL. Our recommendation was simply intended to
          ensure that this objective was being met.

          With regard to the comments about specifying item locations, the
          MC&A Program establishes 24 specific Category IV Material
          Balance Areas at LLNL and provides specific criteria and
          procedures for the inventorying of the nuclear materials contained
          within them. These criteria and procedures include requirements
          for identifying the location of items in Category IV Material
          Balance Areas. Specifically, the Plan states that, for Categories 111
          and IV Material Balance Areas, "the objective of the item
          inventory is to assure that each item listed in [COMATS] is present
          in its appropriate location and that no unexpected items are present
          in any locations." The MC&A Plan further states that to
          accomplish an item inventory for a location in Category IV
          Material Balance Areas, "The MBA [Material Balance Area]
          Representative has an inventory listing for the MBA that identifies
          location number, if applicable, serial number and net weight for all
          items expected to be present in the MBA." The inspection team
          performed sample inventories on five Category IV Material
          Balance Areas, and in all cases the Material Balance Area
          COMATS printout identified specific locations within the Material
          Balance Area where the items should be found. Depending on the
          Material Balance Area, the specific location was designated by
          building and room, and sometimes additional location information
          was provided, such as a floor or shelf location.

          In addition, contrary to the Associate Administrator's comment
          that the accuracy of COMATS already meets and generally
          exceeds published requirements for Category IV Material Balance
          Areas, the accuracy of COMATS for Material Balance Area 300
          was substantially below published requirements. Specifically, the
          MC&A Plan states that "The accounting records system . . .
          establishes a complete audit trail on all nuclear material from
          receipt through disposition." In addition, the Plan states that "The
          accounting system accurately reflects item identity and location in
          at least 95% of cases," and "The accuracy of COMATS for identity



Page 13                          Management and Inspector Comments
          and location is calculated for the population of accountable
          nuclear material being currently inventoried [emphasis
          added]." In the case of Material Balance Area 300, we inventoried
          68 items and identified issues with the status or location of 21
          items. Therefore, the accuracy of COMATS for the accountable
          nuclear material we inventoried for this Material Balance Area was
          69 percent, substantially below published requirements.

          Further, we believe that taking several months to update COMATS
          in Material Balance Area 300 belies the timely and accurate
          information objective of the MC&A Program. In addition, the
          MC&A Plan requires that "The accounting records system is
          capable of generating listings for SNM [Special Nuclear Material]
          within 3 hours and all other nuclear material within 24 hours."
          From our observations of Area 300 operations, it appeared to be
          highly unlikely that accurate listings could be generated within
          established timeframes.




Page 14                        Management and Inspector Comments
Appendix A

SCOPE AND     We conducted our inspection fieldwork between September and
METHODOLOGY   November 2005. LSO and Laboratory personnel were interviewed
              regarding LLNL MC&A procedures, the MC&A Program,
              COMATS, the 2001 and 2005 Site Safeguards and Security Plans,
              the supporting Vulnerability Assessment, and the scoping
              document for future Vulnerability Assessments. We conducted a
              number of random samples at various Material Balance Areas, to
              include 100, 120, 150, 170,200,300, 450, and 570. Documents of
              primary interest were:

                 DOE Order 470.4, "Safeguards and Security Program."

                 DOE Manual 470.4-6, "Nuclear Material Control and
                 Accountability."

                 Lawrence Livermore National Laboratory Material Control and
                 Accountability Manual, Volume A, MC&A Plan.

                 Lawrence Livermore National Laboratory Material Control and
                 Accountability Procedures.

              Also, pursuant to the "Government Performance and Results Act
              of 1993," we reviewed LLNL7sperformance measurement
              processes as they relate to the MC&A Program.

              This inspection was conducted in accordance with the "Quality
              Standards for Inspections" issued by the President's Council on
              Integrity and Efficiency.




Page 15                                             Scope and Methodology
Appendix 6




                                          Department of Energy
                                  National Nuclear Security Administration
                                           Wash~ngton.DC 20585

                                               J u l y 1 0 , 2006


          'LII.:MOI<;\NI>I!M FOli          Alii.ed K . Walter
                                           Assistant Inspector


                                           Michael C'. Kanc




          'l'hc National Nuclear Sccurit) Adnlinistration (N'U'S.4) appreciates the
          opportunity to revie\v the Illspector General's (I(;) drali report. "Material C'ontrol
          and Accol~ntnbilityat 1,awrencc I.ivermorc Natio~ialLaborator!-." M'c understand
          that the I(; \c.anted to dctcrmine if the I,ahoratorj,'s Material ('ontrol and
          Accountabilitj, (MC'&A) I'rogram is pro\,iding timclj. and accuratc i11li)rmation
          regarding thc ~nvcntory.transfers, characteristics. and location of acco~~ntnblc
          nl~clcarmaterials in accordance ~ i i t hrequire~llents.While the drali report
          ;~cl\nowlcdgcsthat the program is. in lac[. tinlclj. and accurate. the I(i submitted
          rccommcndations tliat they believe provide process impro\~ementin selected
          areas.

          As we stated. we are pleased that the inspectors \\ere able to locate all the
          sanlpled accountable ni~clearmaterials and to be able to conclude that the
          I.aburatory's MC&A I'sogra~n p r o ~ i d c dtimely and accurate informution regarding
          thc in\,cntor\,. trunsl'ers. characteristics, and location of accountitble ~ii~clcar
          material. partic~~larly   \i.ithin the Material Access Arca ( M A A ) . 1 lowc\.cr. the
          rccommcndations made relatcd to opport~~nitics        Ibr impro\,enlcnt rclate onlj, to
          C'atcgorl TV materials and does not consider the requirements for a graded
          approach to salkguards. or the [.aboraturl,'s ~Llrrelitrcquirclncnts. which include
          accuracy ol'Controlled Materials Accountability and l'racking System
          (('OM A'I'S). 'I 'he use of C'OM AI'S iiieets and generally cxcccds p ~ ~ b l i s h e d
          rcq~~ircments  for Catcgor) 1V Material 13alance Areas. NNSA agrees with the Site
          Oftice's bclirl'tliat tlie recommendations for pro\,iding greater emphasis on
          C'atcgor! IV matcrial controls. especially in an era ol'limited sali.gllards and
          sccurit) rc'sourccs. is contrary to the requirements fbr implementing graded
          sali.gunrds. Equally. the items of concern that arc mentioned in thc report that
          subsequently gcncratcd the recommendations appear to charac~erizesituations
          incurrcctlj. possiblj because tlie test conditions were nut fully l i n o ~ nat tliat tinic
          01. were not considered Iullj. 'l'hcrcfvre. NNSA is hesitant in agreeing u i t h the
          rccommcndations contained therein.




Page 16                                                                        Management Comments
Appendix B (continued)




          'l'hc report docs not mention Special Nuclear Material (SNM), nor docs it
          distinguish SNM l'rom "Source" and "Other Accountable Nuclear Material." We
          believe that most issues discussed in this report iiivolvcd an isolared incident that
          occurred some nine-months ago and some issues in the report wcre not mentioned
          during the audit. Had they been mentioned during tlie course of thc audit. NNSA
          personnel could have clarified any concerns as the part o f t h e I(;. For cxa~nple.
          the alleged fiiilure to Ibllow the MC&A Plan in which a knowledgeable
          workstation individual read a Tamper Indicating Device ('1'1D) was a simple
          misundcrstandiny of the procedure that should have been resolved bcli)rc the draft
          report was issued.

          Our specific c01n11ientsregarding tlie t'actual accuracy. clarity and the correction
          nl'errors presented in the rcport Ibllow:

                 1-or clnrit). throughout the rcport we recommend that you rcl'cr to the
                 I aboratory as I-l.Kl, instead olLivermore. I hat way it is clear when ~ O L I
                 arc rckrring to 1,ivermore Laboratory versus the I.i\,crmore Site Ollice
                 (LSO)

                 Page I . Introduction and Obiectivc, paragraph I . the list of current
                 accountable nuclear materials is not accurate. Nuclear materials that have
                 becn omitted include normal uranium and uranium-233. In addition. the
                 accountable lithium material is enriched lithium; lithium-6 is the entry for
                 only the isotope weight. The plutoniuni material listed. plutonium 238-
                 242. is octuall! three accountable materials: plutonii~ni-238.plutoniuni
                 139-2-11. and pli~tonii~ni-242.

                 I'ngc 1. Introduction and Obicctivc. paragraph 2 is not accurate with
                 respect to the information presented. First. line 3 should replace
                 '.~iiatcrials"with "qi~antitiesor items." Second. the positioning of all
                 cat ego^ I1 quantities within a MAA is specific to LLNI.. NNSA allows
                 (:ategory I1 quantities to be located withi11a Protected Area (P.4). 'l'hc
                 description ol'C'ategory I11 and IV is incorrect. Deplctcd uranium cannot
                 be Category 111. It is always C'atcgory IV. F,xcept for SNM and separated
                 neptunium. americium-241. and americium-243. all accountable material
                 is Category 1V. Attractiveness 1,evel E. Third. and perhaps most
                 signilicant. the MAA at LLNL contains numerous Cktegory III and
                 Category IV items. not just Categories 1 and I 1 items of SNM. Finally.
                 NNSA requires a graded approach to safeguards based 011category and
                 attrac~ivcncsslevel of material and this fact has not bccn sirl'liciently
                 cnipliasizcd in the report.




Page 17                                                                     Management Comments
Appendix 6 (continued)




             I'iigc 4. Validation of Materials. paragraph 5 . I'lie items in question wcre
             Category IV items. They wcre afforded significantly greater safeguards
             than NNSA policy directs. 'l'hey were located in a glove box for which
             operations had been temporarily suspended due to safety issues specilic Lo
             that box. ['he glo\.e box was located in a 1'A in an MAA and in a room
             that Lvas under two-person si~rveillance.'l'he items had been inventoried
             during previous invcntories, and no operations were conducted in tliat box
             since those inventories.

             The situation resulting lironi the sal'ety concerns with this glovcbos was an
             anomaly from typical inventory conditions. L,I,Nl.'s MC&A Plan does
             stipulate: "If the presence ol'an ile~ncannot be verified without disrupting
             a n csperilnen~in progress or opening a container. then verilication may be
             accepted ~.erballj,liom the experimenter or from the experimenter's
             loghook entries." l'hc I .I ,Nl. designated MC&A managcmcnt official,
             who is responsible I'or MC&A at LLNL. was present at Llie time ofthe
             incident in question and concurred with the inventory team's action
             hccausc he belie\.ed the intent of thc IJlan was satistied by using
             knowledge ol'cxperimenter personnel and MC&A personnel from
             prcvioi~sinventories. The 1,SO MC&A Program Manager. who was also
             present at tliat t i n ~ e invoked
                                        ,       his oversight prerogative to ovcrrulc the
             I.l.Nl, MC&A ol'licial. Facility personnel were con~actedLO pernlit net-
             weighing the items. However, in order to ensure safe operations. the
             Sacility detkrred approval until it was certain that all hazards had been
             idcntiticd and all controls iniplemented.

             This issue should not be construcd as an item or linding related to the
             audit but u a s addressed and resolved entirely through normal LSO and
             LLNL coordination, then discussed with thc OlCi team. Kepresenting this
             as a n issue identified by the OI(; and requiring f i ~ ~ t h 1c r3 0 action is
             inaccurate.

             'The comments above on this issue also pertain to the summary statement
             on this issue o n IJage 2, tirst bullet.

             Page 5. Inventon. Procedures, IJaragraphs 1 and 2. The room in question
             contained only Category IV items that were afforded significantly greater
             salicguards than policy directs. Ol'the approximately 70 items. most wcre
             no larger than one- or two-gram samples and were in process within
             incubators or other enclosures. 'l'he methods to account ti)r these items
             until these processes are completed include log book entries andior
             operator knowledge.




Page 18                                                                   Management Comments
Appendix B (continued)




             I'lic acti\,itl. described in the report appears to have involved the
             interaction b c t ~ . e c the
                                       ~ i MC&A inventory team member. who had the
             workstation printout. and the knowledgeable workstation pcrson who had
             just finished verifying location data \vith this team member. A few of the
             items were not idcntificd during the initial check. 'l'hc second team
             member verbally provided serial numbers to the other mcmbcr s o that
             these items could be reconciled. 1)escribing the approach taken as
             conducting the inventory in a revcrsc manner appears to be an overstated
             niisundcrstanding of the inventory practice that \vas occurring.

             'I he comments above on this issue also pertain to the summary statement
             on this issue on Pagc 2. second bullet.

             I'agc 0. In\,cntorv I'roccdures. Paragraph 1. includes the description of the
             incident as contrary to I,I>NL blC&A procedure is incomplete and
             factually inaccurate. 71'lic room in which this incident occurrcd contained
             only ('atzgory IV waste drums even though it was in a Category 1 process
             arca and aft'ordcd signilicantly greater safeguards than policy directs.

             'I'he MC:&A I'lan docs not specify that all inyentory team m c ~ n b e r s]nust
             be from the MC&A organization. 'These details are provided in MC&A
             I-'roccdure MM-IV-02, I/em Ini~en/oryyf'Ac.coun/trhlc A!~rclrrir Mrr/eritrl.~.
             This procedure explicitly states: "In the Category I process area Material
             I3alance Area (MBA). the Inventory 'I'cani consists o f a t least one
             knowledgeable and trained Inventory Taker froni the Materials
             Management Section and the MRA Representative or k n o ~ f l c d g c a b l c
             workstation pcrson." Consequently. requesting that a knowledgeable
             morkstation person assist in reading a f l l ) is fully consistent with MC&A
             proccdurcs.

             'l'hc c o n ~ m c n t sabove on this issue also pertain to the summary statement
             on this issue on Pagc 2. scco~idbullet.

             Page 6, Tamper Indicating Devices. beginning at Paragraph 3 MBA 170
             contained onl\ Category IV waste d r u n ~ s which
                                                          .     mere located inside a PA
             and afl'orded significantly greater safeguards than required.

             'l'he waste drums in question were part of a specific operation involving
             measurements performed by representatives of tlie Waste Isolation I'ilot
             I'lant (WI1'1'). 'I'hese measuren~entswere performed in an area at LI,NL
             outsidc of the MAA and 1'A. 'l'he waste manager anticipated that some
             drums taken for llleasurelnent would not meet the waste acceptance
             criteria and would need to be returned to MBA 170 and eventually to the




Page 19                                                                   Management Comments
Appendix B (continued)




            MAA. In order to provide the facility sornc assurance that the drurns had
            not been tampered with and additional safety issues created. I,I.NL,
            coordinated ~ , i t the
                                 h LSO MC&A I'rogram Manager to allou the 'l'l1)s to
            remain in tact for thcsc drums. rather than dcface them as was the standard
            practice.

            I'he 1'LL)s were initially applied to the waste drums inside the MAA. and
            the drums thcn placed under two-person surveillance. When the drums
            wcrc rcmo\cd li-om the MAA for WIPP mcasurcmcnl, the '11Ds were
            administratively rcnlovcd in the COMATS database. At no tinlc alicr thc
            drums 1cli the MAA Mere these 'I'IDs used or intended to be used for
            satcguards. I<cgardlcss of'the reaffirmation in LSO's October 28. 2005.
            Survey Report. the policy of not using -l'lDs for safeguard purposes unless
            they arc ~ ~ n deffective
                             er        survcillancc has been practiced at LLNL. and
            explicitly stated in I.I.NJ.'s MC&A Plan since revision of the Plan in
            2000.

            l'inally. TlDs on t\\,o wastc drums. perhaps four, had been reversed in the
            C'OMAT'S database. (Due to shipnicnt to WII'P. the data on the other two
            drums could not be positively confirmed). 'I'his was a database error and
            not a material crror. 'I'hc requirement applicable to this situation is that the
            record system must accurately reflect the location and identity of TlDs
            with 00 pcrccnt accuracy. Having lour errors out o f t h e thousands of 'I'lDs
            inspected during the October inventory is indicative of cllkctivc
            pcrii)r~nancc.Additionally. this req~~irement    for 99 perccnt or grcatcr
            accurnc) is specifically atldressed in I.I,Nl.'s Annual Opcrating Plan and is
            explicitly assessed as a part of each inventor),.

            'I'he comments above on this issue also pertain to the si1nilnar) statement
            on this issue on Page 3. first bullct.

            I'agc 7 . Status ol' Accountable Materials. Paragraphs 1 and 2 and Bullets 1
            and 4. includes inti)rnmation that does not accurately descrihc the
            requirements specified in LLNL's MC&A I'lan or'considcr current
            rcquircmcn~s. 'fhc MRA in question contained only Category IV.
            Attractiveness 1,cvcl E. items (dcplctcd uranium and a small quantity ol'
            lithium deureride).

            At 1.1.31,. location determination for items in Catcgory LV M13As is at thc
            MBA Icvcl. Additional location identification (e.g.. buiIding, room. elc.)
            listed in the accounting system for Category IV MBAs is I'or the M13A
            I<eprescntative convenience only. Section 7.2.6.3 ol'the MC&,2 Plan
            states: "'1'0 accornpiish the 100 percent itcm inventory for a location in




Page 20                                                                   Management Comments
Appendix B (continued)




             ('atcgoq, IV M13.4~.the MBA Kcpresentative systcnlatically checks the
             :Mll.4 li)r nuclear material and . .." This statcinci~tis in contrast to all other
             inventory descriptions that state: "...checks the loctrrion Ibr.. ." (italics
             added here for emphasis). Consequently. the location of 14 itenis in MBA
             300 were specified consistent with MCXA I'lan requirements.

             In addition, requirements for the type of items located in MBA 300 arc
             specified in DOE M 470.4-6, Section A, (.'haptcr 1. paragraph 3c. 'l'hcsc
             i ~ e m arc
                     s exempt from most MC&A requirements. Regarding location.
             the inventory and transactions for these materials must be documented
             only as being at I.LNL. The fact that 1.I.NI. further specifics the MBA
             exceeds that requirement.

             'l'hc comments abo\e on this issue also pertain to the summary statement
             on this issue on Page 3. second and fifth bullets.

             I'age 7. Status of Accountable Materials. Paragraphs 1 and 2. I3ullets 7 and
             3. presents inlbrmation that is inconipletc and misleading. Thc MBA in
             qucstion co~ltainedonly (:ategory 1V. Attractiveness I,evel E. items
             (depleted uranium and a small quantity of lithium deuteride).

             'I'he items in question (depleted uranium) were destroyed as part of'an
             explosive test. I'rior to deleting an iten1 from the COMA'I-S database, the
             MI3A representative verifics that identihation of destroyed items is
             docunlcntcd by programmatic personnel on both a Job Order and Shot
             Card, and that these documents arc consistent. Ilepending on
             programmatic operations. completion of both these documents may take
             several months. so that a time delay in updating (10MA7'S is not unusual
             and is nvt a dcliciency. In the event that an annual invcntory occurs hefore
             this process is completed, the MBA representative relies on partial
             documcntation and experimenter knowledge to rcconcilc items not readily
             available for immediate physical inventory.

             Regarding the comment on duplicate identification numbers of'two parts.
             the parts wcre initially entered into the system using the \,endor's
             identification nu~nhcrs.At a later time these parts wcre assigned a new
             number consistent with LLNL's designated system. This practice is
             con~monplaceand generally applied to all parts received tiom outside
             organizations. A simple human error resulted in the database duplicating
             thc listing. I'his en-or would have been identified and reconciled during
             the nest annual physical inventory.




Page 21                                                                    Management Comments
Appendix B (continued)




                 1:inally. thc partially destroyed item had been initially documented on a
                 Shot liecord and Job Order as bcing destroyed. However. upon recovering
                 shot debris. the prograni recovered this item as being only partially
                 destroyed. When such items are returned to thc MBA representative Sor
                 storage. they are recntcred into the COMATS database. 'fhis particular
                 item had not yet been returncd to the MBA rcpresentati\~eat the time of
                 this re\ lev+.

                 I'he commcnts above on this issue also pertain to the suninlary statement
                 on this issuc 011 Page 3. third and fourth bullets.

          Our commcnts related the recomn~endationsare as follows.

          Recommendation 1: l.;nsure that lnvcntory personnel validate all serial numbcrs,
          verib thc integrity of all .I'll)s, and. il'required. conIirn1 the nct wciglit 01'
          accountable nuclear material.

          Management Comment

          This recommendation addresses activities that are. and have been. part and parcel
          of our current operations.

          Recommendation 2: Ensure that invcntory personnel conduct in\/cntories in
          accordance with thc procedures identified in the MC&A Plan, to includc
          complying with the spccificd invcntory team membcr duties and team
          composition.

          Management Comment

          Inventories being conducted are not contrary to the MC&A Plan and Procedures
          'The procedure in place at the time ofthe audit, however. did not contain specific
          guidance for thc anomalous situation in which an item is not initially located
          durlng the invcntory process-specifically allowing informalion usefi~lto the
          ~.cconciliationto be told to the second inventory team member. I'his clarilication
          ol'our acceptcd practice has been addcd to thc procedure and no further action is
          rcquircd.

          Recommendation 3: Ensure that the TID program is managed in accordancc
          with the MC&A Plan. with particular cmphasis on the accuracy of infor~nationin
          C'OMAI'S and elimination ol'TTDs when no longer rccluircd under 1.ivermore
          MC'&A proccdures.




Page 22                                                                   Management Comments
Appendix B (continued)




          h i s ~.ecommcndationaddresses activities that are. and ha\x been. part and parccl
          u f our current operations.

          Rceommendsrtion 4: Ensurc that greater MC&A prograinn~aticemphasis is
          placed on thc accuracl al'<'OMA f S for C'atcgory IV Material Balance Areas.

          Management Comment

          NNSA does not agree with this recommendation. 'l'his report does not mention
          Special Nuclear Material, nor does it distinguish Special Nuclcar Matcrial from
          Source and Other Accountable Nuclear Material. and does not consider the
          rcquircmcnt for a graded approach to safeguards. as stated in I)OI< Manual 470.4-
          6, Chapter 1 . paragraph 2. LLNL's current rcquiremcnts. incli~dingaccuracy of
          C'OMA'I'S. already meet and generally exceed published requirements for
          C'atcgor). IV MBAs. Providing greater emphasis on Category JV. especially in an
          cra oflin~itedsafeguards and security resources. is contrary to the rcqiiiremcnt I'or
          gracied safi.guards.

          cc:   Manager. I.i\,el.rnore Site Office
                NNSA Senior Procurement Executive
                llirector. NNSA Service Center




Page 23                                                                    Management Comments
                                                                      IG Report No. DOEIIG-0745

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1 . What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report, which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG- I )
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
